The Library of Congress
Office of the Inspector General




                             Library Services
                     (National Library Service for the
                                 Blind and Physically
                                       Handicapped)

                      Economies Are Available in
                         Managing NLS Cassette
                     Playback Machine Inventory


                    Audit Report No. 2001-PA-101
                                      August 2002
UNITED STATES GOVERNMENT                                      LIBRARY OF CONGRESS
Memorandum                                                    Office of the Inspector General

TO:            James H. Billington                                             August 30, 2002
               The Librarian of Congress

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:       Economies Are Available in Managing NLS
               Cassette Playback Machine Inventory
               Audit Report No. 2001-PA-101


This transmits our final audit report on the National Library Service for the Blind and Physically
Handicapped (NLS) cassette playback machine inventory operations. Recommendations in the
report apply to both NLS and Integrated Support Services (ISS). Recommendations IA, IC, and
ID pertain to NLS, and IB, II, and III pertain to ISS.

NLS and ISS responses are briefly summarized in the Executive Summary beginning on page i,
and in more detail after individual recommendations appearing on pages 7, 10, and 11. NLS’s
complete response is included as Appendix A and ISS’s response as Appendix B.

We request that NLS and ISS provide an action plan addressing implementation of the
recommendations, including implementation dates, within 90 calendar days in accordance with
LCR 1519-1, Section 4.B. We also request that NLS complete the requirements analysis
recommended in finding I prior to awarding the next manufacturing contract scheduled for early
FY 2003. As follow-up to this report, the Office of the Inspector General would like to review
the analysis before the new contract is negotiated, and review updates of the analysis before
subsequent annual options are exercised.

We appreciate the cooperation and courtesies extended by NLS and ISS staff during the audit.

cc:    Deputy Librarian of Congress
       Associate Librarian for Library Services
       Director, National Library Service for the Blind and Physically Handicapped
       Director, Integrated Support Services
       Acting Head of Contracts
       Director, Financial Services Directorate
The Library of Congress                                            Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                     August 2002




                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                                                i


INTRODUCTION                                                                                 ]


OBJECTIVES, SCOPE, AND METHODOLOGY                                                           3


FINDINGS AND RECOMMENDATIONS                                                                 4


I.    Requirements Analyses Should Be Used to Determine
      Annual Playback Machine Purchase Quantities                                            4
          Recommendations                                                                    7
          NLS and ISS Responses and OIG Comments                                             7


II.   Savings May Be Obtained by Renegotiating the MSCW Lease                               10
          Recommendation                                                                    10
          ISS Response and OIG Comments                                                     11


III. Savings Could Be Realized by Reducing
      the Warranty Period for Cassette Machines                                             11
          Recommendation                                                                    11
          NLS and ISS Responses and OIG Comments                                            12


APPENDIXES:        A - Formal Response to the Draft Report - NLS                            13
                   B - Formal Response to the Draft Report - ISS                            33
The Library of Congress                                               Audit Report No. 2001-PA-101
Office of the Inspector General                                                        August 2002

                                  EXECUTIVE SUMMARY

The National Library Service for the Blind and Physically Handicapped (NLS) operates a
national library program of braille and recorded materials for blind and physically handicapped
persons. The Library’s Integrated Support Services (ISS) infrastructure component provides
contracting services in support of the program. NLS efficiently operates a well structured
decentralized warehouse and distribution network for its approximately 700,000 cassette
playback machine inventory. However, economies could be realized through improved
inventory management.

The primary equipment used today is the C-1 cassette playback machine. The supply and
demand of these machines has changed in recent years. In the early to mid 1990s, there were
shortages and patrons had to be placed on waiting lists for available machines. Currently, there
are surpluses and the number of patrons is declining, resulting in increasing machine inventories
on library shelves. Since 1998, the inventory of machines available to patrons and repairable
machines have increased 75 percent and 55 percent respectively. Combined, the 147,000
available and repairable cassette machines represent 27 percent of the 538,000 machines
currently assigned to patrons. According to NLS, in 1998 it needed about a 10 percent reserve of
available cassette machines. Currently, the reserve is approaching 14% and growing. Over the
same period, the demand for machines has decreased. Due to these trends, NLS may not need to
buy as many new machines as planned.

We also determined that structured requirements analyses are not used to determine cassette
playback machine purchase quantities. Instead, NLS bases its annual purchase quantity on the
amount of available funding. In recent years, NLS has been purchasing about 50,000 machines
annually. More accurate determinations of inventory needs, and reduced purchases of new
machines, could be realized if requirements analyses were performed and used to establish
annual purchase quantities. An annual structured requirements analysis should consider relevant
social trends and cost factors that affect supply and demand, and existing inventories of new,
repaired, and repairable machines. This analysis should be completed prior to the next five-year
manufacturing contract award scheduled for early FY 2003. Additional reductions in new
machine purchases may be available by expanding the underutilized and less expensive
commercial repair effort. The cost to repair a machine is 30 percent of the cost of a new
machine.

Further economies may be realized by renegotiating the Multistate Center West warehouse lease
contract and reducing the warranty period for new cassette machines. Our review showed that
comparable warehouses are more competitively priced and that based on actual warranty claims,
savings of up to $300,000 may be achieved by reducing the warranty period from one year to six
months.

NLS and ISS agree with all of our recommendations, however, NLS believes we were led to
inappropriate conclusions based on incomplete information. We disagree. Based on evidence


                                                i
The Library of Congress                                                 Audit Report No. 2001-PA-101
Office of the Inspector General                                                          August 2002

supporting the May 16, 2002 NLS response to our draft audit report and subsequent exchanges
of information, we reaffirm our conclusions and recommendations, but have qualified some
information in the report.

Even though NLS agrees with our recommendations and states that current inventory “may be a
bit high,” it also states “We do not expect that we can have a gradual reduction in the production
of C-1s.” NLS also agrees to increase repairs of C-1 machines, but only after it has reached an
unspecified inventory level. We suggest the Library review the NLS requirements analyses
recommended in this report when considering base funding requests for playback machines
during future budget cycles.

Office of the Inspector General comments on specific NLS and ISS responses begin on pages 7,
11, and 12.




                                                ii
The Library of Congress                                                  Audit Report No. 2001-PA-101
Office of the Inspector General                                                           August 2002

                                       INTRODUCTION

The National Library Service for the Blind and Physically Handicapped (NLS) administers a free
national library program for persons who are unable to read standard printed materials due to
physical and/or visual impairments. Specially designed playback machines, books and
magazines in braille, recorded discs, and recorded cassettes are delivered to eligible patrons by
postage-free mail and returned to network libraries and agencies in the same manner.

There are two Multistate Centers (MSCs) that operate under contract to NLS to directly support
network operations via the receipt, storage, and distribution of equipment and accessories
directly to network agencies and repair locations. The Utah State Library operates the Multistate
Center West (MSCW), located in Salt Lake City, Utah. The Clovernook Home and School for
the Blind operates a similar center in Ohio for the eastern U.S. MSCs also loan braille, recorded
books, and back issue recorded magazines from backup and special collections directly to
patrons and distribute various supplies and publications directly to regional libraries.

The MSCW is located in a state-owned facility that includes offices that are used for other
purposes. NLS is currently in the second option year of a cost-plus-fixed-fee contract and is
billed only for the occupied warehouse space.

In addition to determining production quantities, NLS develops and maintains specifications for
the equipment. With assistance from NLS, Integrated Support Services (ISS) solicits and
evaluates bids and proposals for the production of the equipment and awards contracts. The
primary inventory management responsibilities for audio playback equipment consist of
allocation of equipment, maintaining accountability and control of the national inventory while
in the custody of other parties, and controlling the disposal of equipment.

In 1997, the Library awarded a five-year contract to Telex Communications, Inc. for the annual
purchase of approximately 50,000 C-1 cassette machines. Although other older technology
machines are utilized, the C-1 machine represents the dominant playback machine in use today.
The FY 2002 contract cost for each machine is about $254. This amount reflects an average
increase of approximately five percent per year. The Library’s annual purchase of cassette
machines is determined by the amount of funding received through appropriations. ISS recently
received Telex’s June 10, 2002 five-year proposal to replace the current contract. The proposal
included prices for machine quantities ranging from 20,000 to 60,000 units. As of June 2002,
NLS had an inventory of 708,000 cassette machines: 83,000 working and available; 87,000
repairable machines; and 538,000 assigned to patrons. The estimated life-duty-cycle of a C-1
machine is estimated to be 16 years, so machines purchased in FY 2002 can be expected to be
useful until FY 2018.

NLS determines the needs for equipment repair and related supplies on a national basis and
contracts with firms for the provision of these goods and services. It is the responsibility of a
network of 60 Machine Lending Agencies (MLAs) participating in the program (including the


                                                 1
The Library of Congress                                                Audit Report No. 2001-PA-101
Office of the Inspector General                                                         August 2002

two MSCs), to obtain the services of volunteer organizations to repair damaged, non-warranty
machines. Procedures for network agencies and repairers regarding equipment control and
repair standards are developed by NLS. Volunteer repairers directly support network operations
by receiving damaged equipment, repairing it, and returning it to the MLAs. MLAs control and
distribute the playback machines and accessories in specified service areas. NLS supplements
the volunteer repair effort with the Cintrex Audio Visual commercial contract. This five-year
contract includes the annual repair of approximately 3,000 C-1 machines.

Under contract to NLS, Data Management operates a centralized national equipment inventory
control system that involves receiving, inputting, and processing data provided by the MLAs and
MSCs. This system produces management reports for NLS, and activity reports for network
agencies to assist in controlling the national inventory. The reports include information on the
number of machines that are available, damaged, and repairable. Available means new and
repaired/reconditioned machines that have not been assigned to a patron.

NLS is in the early transition stages of moving from the current analog cassette machine to a
digitally-based audio technology. It has made three assumptions in planning for this next-
generation technology: it will be digitally based; it will use a standard or slightly modified
version of a widely used consumer product or technology to gain the cost efficiencies of mass
production; and the new technology will be implemented in FY 2008.




                                                2
The Library of Congress                                               Audit Report No. 2001-PA-101
Office of the Inspector General                                                        August 2002

                         OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to evaluate the economy and efficiency of (1) inventory management;
(2) contract awards for MSCW operations; and (3) a centralized storage strategy for the playback
machines. We focused our attention on the MSCW because it houses the vast majority of the
playback machine inventory. The scope of our review included:

    •   Analyzing trends in playback machine usage, supply, and repair levels;
    •   Evaluating the Telex production and Cintrex repair contracts for possible savings
        opportunities in both the playback machine warranty period and adjustments to the
        purchase levels;
    •   Determining the repair capacity of Cintrex;
    •   Analyzing the State of Utah warehouse charges for reasonableness;
    •   Observing MSCW operations;
    •   Evaluating the storage trends of MSCW and MLAs, and the capacity of the MSCW to
        store more playback machines; and
    •   Evaluating the national equipment inventory control system contract.

Interviews were conducted with NLS key personnel; contracting officers; contracting officer
technical representatives; the Utah State Debt Manager; a real estate agent, developer, and
appraiser in Utah; and representatives of NLS contractors. We conducted our fieldwork in Salt
Lake City, Utah and Washington, D.C. from May 2001 to March 2002. The fieldwork was
interrupted due to workload demands of our office. On January 25, 2002 and April 23, 2002, we
conducted exit conferences with NLS and ISS, respectively. We also held an August 8, 2002
meeting with NLS to further discuss the issues contained in this report. We conducted our audit
in accordance with generally accepted government auditing standards.




                                               3
The Library of Congress                                                        Audit Report No. 2001-PA-101
Office of the Inspector General                                                                 August 2002

                                     FINDINGS AND RECOMMENDATIONS

I.                Requirements Analyses Should Be Used to Determine
                  Annual Playback Machine Purchase Quantities

NLS does not conduct structured requirements analyses to determine annual purchase levels for
playback machines. As a result, it is difficult to maintain adequate control over the size of the
playback machine inventory. There has been a significant increase in the number of available
and repairable C-1 machines on MLA shelves. Table 1 shows that from March 1998 to
December 2001, the inventory of available C-1 machines increased 75 percent, from 36,906 to
64,634. During this same time, the inventory of repairable machines increased 55 percent, from
52,341 to 80,891. The increase of repairable machines is due to a decline in the number of
volunteers who perform the majority of repairs. According to NLS, this trend will continue. At
the same time, there has been no increase in commercial repair service.


                       Table 1   Unassigned C-1 Cassette Machine Inventory


                 100
     Thousands




                  90

                  80

                  70

                  60

                  50

                  40

                  30
                        March 1998      March 1999      March 2000        March 2001      December 2001


                                           Repairable Machines       Machines Available


NLS could achieve significant savings by reducing the annual purchase of new C-1 cassette
machines and simultaneously expanding the less expensive commercial repair effort. The
current option year of the contract has each C-1 machine priced at about $254, notwithstanding

                                                       4
The Library of Congress                                                               Audit Report No. 2001-PA-101
Office of the Inspector General                                                                        August 2002

yen to dollar fluctuations. 1 The current contract cost to repair each C-1 machine is about $78:
$40 for parts and $38 for labor. The cost difference between buying a new machine and
repairing a machine is $176 ($254-$78). According to NLS, with the proper reconditioning, the
cassette machines could last indefinitely. A reduction of 25,000 to 50,000 machines over five
years may be possible with potential savings of $4.4 to $8.8 million. 2 According to Cintrex, it
could repair an unlimited number of C-1 machines if provided one to two months advance notice
to increase capacity. Other contractors may also be capable of repairing C-1 machines. Most of
the C-1 machines are stored at the MLAs around the country, however, an estimated 18,000
repairable machines are stored in the Salt Lake City warehouse. The large quantity in Salt Lake
City would facilitate the logistical efforts to initiate the expansion of the commercial repair
effort.

In the early to mid 1990s, there was a shortage of C-1 machines and patrons had to be placed on
a waiting list for an available machine. As shown in Table 2, the environment has significantly
changed in recent years. From March 1998 to December 2001, the total number of assigned
machines has declined by nine percent (658,616 to 598,253 3 ) and there is no evidence that this
trend will change.

                          Table 2    Total Machines Assigned To Patrons

                  670
      Thousands




                  660

                  650

                  640

                  630

                  620

                  610

                  600

                  590
                        March 1998   March 1999       March 2000         March 2001      December 2001




1
    A Japanese subcontractor produces internal components for Telex Communications, Inc.

2
    In the recently received proposal from the playback machine manufacturer, the per unit machine cost has increased
    which could result in significantly larger savings.

3
    Total assigned machines include approximately 543,000 cassette players (C-1 and other types) and 55,000 talking
    books (phonographs).


                                                          5
The Library of Congress                                                   Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                              August 2002


The increase in available and repairable machines combined with the reduction in the total
machines assigned to patrons should justify a reduction in the annual purchase of new machines.
Even if machine usage remained constant at current levels, projected annual purchases of 50,000
machines would produce increasingly excessive machine inventory levels.


Another factor influencing the supply of machines is the new NLS practice of disposing of older
machines. On October 5, 2001, it initiated the disposal of older C-l machines in an effort to
better utilize repair resources that were being consumed by numerous repairs of older machines.
An estimated 10,000 C-l machines were sent to disposal including both working and repairable
machines. We were unable to determine how many of each status machine were included in this
number.


NLS had an informal group of staff review its machine backlog and make recommendations to
better use repair parts. However, the group did not maintain written criteria or documentation to
support disposal decisions. The NLS inventory procedures manual states that equipment should
not be disposed of as long as it is working. Despite the disposal of older working machines, the
inventory of C-l machines remains high.


There are also recent developments in available technology for the blind that may have reduced
the demand for cassette machines. These developments include commercial online services that
allow individuals to download books into braille, and telecommunication initiatives that provide
audio versions of daily newspapers.

NLS has initiated two major national outreach campaigns aimed at increasing the enrollment of
patrons. Sixteen libraries have participated in six-month campaigns that began in the first quarter
of FY 2002. Other cities are scheduled to take part in the campaigns through FY 2004.
Although NLS anticipates additional growth of 18,000 to 20,000 patrons as a result of the
campaigns, based on recent statistics for these cities, we do not believe there will be a significant
change in long-term demand for NLS playback machines.

GAO's Leading Practices in Capital Decision-Making (GAO/AIMD-99-32), December 1998,
recommends conducting a comprehensive needs assessment of program requirements as an
important first step in an organization's capital decision-making process. Many leading
organizations conduct these assessments to identify and document needed resources. A
comprehensive needs/requirements assessment considers an organization's overall mission and
identifies immediate and future resources. Assessments usually cover a five or six-year period
and are updated frequently as part of the organization's budget cycle.
The Library of Congress                                                  Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                             Aueust 2002


Recommendations


A.       NLS should perform a structured requirements analysis of C-l machine supply and
         demand prior to awarding the next contract in early FY 2003, and successive annual
         analyses, as input for determining new machine purchase quantities. The annual analyses
         should cover five years and incorporate social trends and cost factors including:

     •   The total number of patrons;

     •   Alternative sources of material available to patrons via new technologies;

     •   The impact of the national outreach campaign in generating new patrons;

     •   The cost of new versus repaired machines;

     •   Unit cost versus quantity of new machine purchases;

     •   The impact of the C-l machine phase-out strategy on digital machine implementation;

     •   The estimated useful life of new and existing machines; and

     •   The number of available and repairable machines.


B.       ISS should request machine prices at various quantities as input to the requirements
         analysis and purchase decision process.


C.       NLS should increase the C-l machine repair contract to accommodate reductions in new
         C-l machine purchases.


D.       NLS should develop specific criteria to support future disposal decisions. Additionally,
         all future disposals should document the basis for eliminating used machines.


NLS and ISS Responses and OIG Comments


NLS responded that it agrees, in general, with all recommendations and that it has plans to
pursue most of the issues we raised, but will do so in the context of the transition from analog to
digital technology scheduled for FY 2008. The response also states that the OIG reached
inappropriate conclusions based on incomplete and inaccurate data. It disputed many of the
calculations in the report and intends to increase the commercial repair contract when it reaches
an undisclosed inventory level.


NLS states that it makes purchase decisions based on the factors we recommended, that the
reported nine percent decline in demand for machines is only one percent when analyzing only
cassette machines, and that computer technology (alternative sources for NLS patrons) will have
little or no impact on demand for its services. It also disputed the 75 percent increase in the
The Library of Congress                                                  Audit Report No. 2001-PA-101
Office ofthe Inspector General               .                                            August 2002


quantity of available C-l machines and believes the increase is only 21 percent when all cassette
machines are considered, including prior generation machines.

We reaffirm all of our conclusions and recommendations. NLS states that the factors we
recommended for structured requirements analysis are already used in decision-making and
submitted a May 2002 publication entitled "Digital Talking Books, Progress to Date" as
evidence. The publication documents planning considerations for the digital machines, however,
there is no reference to inventory management of cassette playback machines and no specific
criteria that could be used for a purchase decision model. NLS also refers to a Life Cycle Cost
Model that predicts overall costs and the Digital Audio Development (DAD) project that reviews
C-l production and commercial repair timing. Although the Life Cycle Cost Model and the
DAD may include some information that can be used to prepare the requirements analysis, they
do not identify the quantity of machines needed.


NLS points out that the decline in demand is just one percent when only cassette machines are
analyzed and that the cassette machine decline (excluding phonographs) is a more accurate
reflection of demand. According to NLS, patrons who have phonographs also have cassette
machines so they can use current magazine titles that are no longer produced for phonographs.
NLS believes phonographs and cassette machines should not be considered together because they
are not interchangeable and so reduced demand for phonographs does not result in an equal
increase in demand for cassette machines as a result of patrons trading phonograph machines for
cassette machines.


We understand the logic of this scenario, however, NLS could not provide evidence to show the
extent of patrons using both machines. Without this information, the impact of fewer
phonographs on the demand for cassette machines cannot be determined. We do know, however,
that phonographs become an increasingly smaller factor in demand for cassette machines as the
number of these older technology machines continues to decrease. Currently, there are 46,000
phonographs assigned to patrons, down from 107,000 four years ago.


NLS' statement that computer technology will have little or no impact on demand for its services
is debatable. Although we could find no statistical evidence, the availability of these alternative
sources to NLS services could continue to reduce the demand for C-l machines and digital
talking books. Consequently, the impact of technological advances in services for the blind must
also be considered as usage data becomes available.


NLS states that the reported 75 percent increase in available C-l machines is only 21 percent
when all cassette machines are grouped, including prior generation machines. However, the
inclusion of older machines (in some cases 20 years old) distorts the analysis. There were nearly
11,000 of these older machines available at the beginning of the analysis period, but less than
300 remained at the end of the period. They were declared obsolete and many MLAs are no


                                                   8
The Library of Congress                                                  Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                            Aueust 2002


longer assigning these machines to patrons. Therefore, we believe the 75 percent increase in C-l
machines is a better representation of the total supply of useable and available machines.

Another analysis to demonstrate the large reserve of C-l machines is shown in the chart below.
The available C-Is, as a percent of total assigned cassette machines, has approximately doubled
(from 6.69 percent to 13.22 percent) since 1998.


                          Chart - Supply of Available C-l Machines

                                                 Total Assigned   % of Available
                                 Available C-1 s Cassette Machines C-1 Machines
                      Mar-98         36,906         551.573           6.69%
                      Mar-99         44,252         555,621           7.96%
                      Mar-00         53,756         560,958           9.58%
                      Mar-01         59.113         555.010           10.65%
                      June-02        71.130         538,142           13.22%


NLS initiated the disposal of approximately 10,000 surplused older C-l machines in October
2001 and these machines are excluded from the June 2002 calculation. Consequently, not only is
there a greater supply of C-l machines, the average machine is newer compared to earlier
periods.


Although NLS agrees with our recommendations, it states the C-l machine repair contract will
not be increased until it reaches an inventory level that is sufficient to meet the demands of the
analog to digital transition. NLS also states, "We bought machines to the limit of available
funding and will continue to do so until we have an acceptable level of maintainable CBMs...
By 1998, we reached the 10% range (for available cassette machines) which is probably about
right." According to NLS it is approaching 14% and growing and there is no commitment of
when repair efforts will be accelerated.


We reported a 55 percent increase in the number of repairable C-l machines from March 1998 to
December 2001. NLS basically agrees with the increase, but states it is 48 percent if you
consider all cassette machines. As of June 2002, there were 75,808 repairable C-l machines. If
these machines were all repaired, it would increase available C-l machines to 146,938, or 27
percent of total assigned machines. It is not cost effective to have this large quantity of machines
on a shelf while new, more expensive machines are purchased. NLS should immediately expand
the C-l machine commercial repair effort due to the savings that can be achieved by reducing the
number of new machines purchased.


The demand for NLS machines appears to be declining at an accelerating rate. Utilizing an
additional six months of data since our draft report, from January 2002 to June 2002, the total
number of machines assigned to patrons dropped another two and one-half percent, for a
cumulative decline of 11.5 percent from March 1998 to June 2002 (658,616 to 583,840).
The Library of Congress                                                  Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                            August 2002


Demand for all cassette machines has declined 4 percent since March 2000. The continuing
decline in machine demand must be incorporated into NLS's requirements analysis and weigh
heavily on purchase quantity decisions on the pending Telex C-l machine contract.


ISS agrees with recommendation IB and released a solicitation on May 15,2002 that requested
pricing for various quantities of cassette machines.


II.     Savings May Be Obtained by Renegotiating the MSCW Lease

There is no evidence that the contracting officer performed a cost analysis or conducted any
negotiations on the lease expenses prior to awarding the contract for the MSCW. We reviewed
the market rate for comparable properties in Salt Lake City and determined there are similar
warehouses that charge less than the Library is paying.


The Library could save money by negotiating better terms for the leased square footage
warehouse space. The State of Utah charges $5.52 per square foot and another $1.75 per square
foot for operations and maintenance. The total amount billed is $7.27 for 34,420 square feet or
$250,233 annually. The quotes we obtained for comparable warehouses in the Salt Lake City
area ranged from $6.19 to $6.91 per square foot, which would result in savings of $12,400 to
$37,200 per year. Savings over the five-year cost-plus-fixed-fee contract could range from
$62,000 to over $185,000.


Comparing the commercial square footage rates to the Library's payment does not take into
account that the commercial quotes include all expenses and profit in the square footage charge.
The State of Utah's square footage charges should be less than the commercial quotes because it
does not pay state taxes or insurance, and does not include profit, which is included as a separate
item in the contract.


OMB Circular A-87 states, "rental costs are allowable to the extent that the rates are reasonable
in light of such factors as rental costs of comparable property, if any; market conditions in the
area; alternatives available; and, the type, life expectancy, condition, and value of the property
leased." The circular adds that consideration should be given to market prices for comparable
goods or services when determining reasonableness.


Recommendation


ISS should obtain three lease cost estimates for alternative warehouse space and negotiate with
the State of Utah an agreement to reduce the warehouse lease charges.




                                                 10
The Library of Congress                                                  Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                           August 2002


ISS Response and OIG Comments


ISS concurs with our recommendation and will contact GSA to request comparable square
footage costs prior to exercising the next contract option year.


NLS questions whether the OIG used comparable warehouse space suitable for library materials,
including climate control requirements. Our quotes were for comparable warehouses. NLS also
believes that the contracting officer conducted a cost analysis because of a September 18,1997
memorandum from the contracting officer to the Library's Contracts Review Board. The
memorandum states that the contracting officer had a telephone conversation with the GSA Real
Estate Division. GSA provided a general range of square footage prices that were rounded to the
nearest dollar. However, the contracting officer's official contract file contained no record of
specific prices or evidence of market research.


III.     Savings Could Be Realized by Reducing
         the Warranty Period for Cassette Machines

NLS could achieve savings of up to $300,000 over five years by negotiating a six-month
warranty on all future C-l playback machine contracts. The current Telex production contract
contains a one-year warranty period. According to NLS, the majority of problems with new
machines occur in the first three months of usage. Consequently, most of the defective machines
would be identified prior to the expiration of a six-month warranty period. The Library has not
taken advantage of current machine repair trends and attempted to change the contract warranty
terms.


FY 2002 is the final option year of the five-year Telex contract. The machines are delivered
throughout the year in lot shipments. The warranty period begins after the final lot is delivered
regardless of the actual delivery date. As a result of this warranty period agreement, a six-month
warranty period would actually be longer for all machines that are delivered prior to the final
shipment.


The Federal Acquisition Regulations state that the Government shall use sound business
judgment in dealing with contractors. In prior years, NLS purchased three-year warranties on
C-l playback machine purchases, then converted to one-year warranties in more recent years to
obtain savings in the per unit machine prices. Based on actual experience with the C-l machines,
further reducing the warranty period would provide additional savings.


Recommendation


ISS, with NLS assistance, should negotiate the next Telex contract for a six-month warranty.




                                                  11
The Library of Congress                                             Audit Report No. 2001-PA-101
Office ofthe Inspector General                                                       Aueust 2002


NLS and ISS Responses and OIG Comments


ISS concurs with our recommendation.       NLS does not believe savings of up to $300,000 are
obtainable. However, the June 10, 2002 Telex proposal was priced with both six-month and one
year warranty prices. The proposed savings between the 6-month and one year warranty periods,
using 50,000 machine purchases, exceeds $300,000.


Major Contributors to This Report:


        Anita Scala - Assistant Inspector General
        Stuart Axenfeld - Senior Auditor




                                               12
The Library of Congress           Audit Report No. 2001-PA-101
Office of the Inspector General                    August 2002

                                              APPENDIX A
                                                (Page 1 of 20)
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                     (Page 2 of 20)




                                  14
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                     (Page 3 of 20)




                                  15
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                     (Page 4 of 20)




                                  16
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                   (Page 5 of 20)




                                  17
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                   (Page 6 of 20)




                                  18
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                     (Page 7 of 20)




                                  19
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                     (Page 8 of 20)




                                  20
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                     (Page 9 of 20)




                                  21
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 10 of 20)




                                  22
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 11 of 20)




                                  23
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 12 of 20)




                                  24
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 13 of 20)




                                  25
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 14 of 20)




                                  26
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 15 of 20)




                                  27
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 16 of 20)




                                  28
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 17 of 20)




                                  29
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 18 of 20)




                                  30
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 19 of 20)




                                  31
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX A
                                                    (Page 20 of 20)




                                  32
The Library of Congress                Audit Report No. 2001-PA-101
Office of the Inspector General                         August 2002

                                                   APPENDIX B




                                  33
